  COLLECTION AND REPORTING OF PATIENT SAFETY DATA
        WITHIN THE MILITARY HEALTH SYSTEM


Report No. D-2001-037               January 29, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil or contact the Secondary Reports Distribution
  Unit of the Audit Followup and Technical Support Directorate at (703) 604-8937
  (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
AFIP                  Armed Forces Institute of Pathology
IOM                   Institute of Medicine
JCAHO                 Joint Commission on Accreditation of Healthcare Organizations
MHS                   Military Health System
MTF                   Military Treatment Facility
OASD(HA)              Office of the Assistant Secretary of Defense (Health Affairs)
QuIC                  Quality Interagency Coordination Task Force
VA                    Department of Veterans Affairs
                       Office of the Inspector General, DoD
Report No. D-2001-037                                                 January 29, 2001
  (Project No. D2000LF-0195)

              Collection and Reporting of Patient Safety Data
                     Within the Military Health System

                               Executive Summary

Introduction. On November 29, 1999, the Institute of Medicine released a report
entitled “To Err is Human, Building a Safer Health System.” The report estimated that
as many as 44,000 to 98,000 patients die each year in the United States as a result of
medical errors. As a result of the findings in the report, the President issued a
memorandum on December 7, 1999, directing the Quality Interagency Coordination
Task Force to evaluate the report recommendations.

The Assistant Secretary of Defense (Health Affairs) has proposed a centralized,
DoD-wide patient safety reporting program to reduce occurrence of medical errors.
The program focuses on prevention of medical errors through centralized reporting of
patient safety data and sharing the data and lessons learned throughout DoD. The
Assistant Secretary of Defense (Health Affairs) requested that we review the proposed
patient safety reporting program.

Objectives. Our objective was to evaluate the collection and reporting of quality
assurance data within the Military Health System with a focus on the management of
events potentially affecting patient safety. We did not evaluate the management
controls program because the patient safety reporting program is still in the
development phase.

Results. Significant effort to collect and report patient safety data is ongoing at the
Military Treatment Facility level within the Military Health System. The DoD
proposed patient safety reporting program has the potential to improve data consistency
and provide a means for sharing the data and lessons learned throughout DoD. To
effectively and efficiently implement the proposed patient safety reporting program, an
implementation strategy is needed. Without an implementation strategy, the proposed
program’s potential for improving health care through reduction of medical errors may
not be maximized. See the Finding section for a discussion of the audit results.

Summary of Recommendations. We recommend the Assistant Secretary of Defense
(Health Affairs) develop an implementation strategy for the proposed patient safety
reporting program. The implementation strategy should include goals and performance
measures, outline a phased approach for reporting adverse events, identify full-time
core staffing, require that patient safety personnel successfully complete program
training, and use the Department of Veterans Affairs patient safety database software.

Management Comments. The Acting Assistant Secretary of Defense (Health Affairs)
concurred with the finding and recommendations, stating that an implementation
strategy is essential and one will be developed to include our specific recommendations.
The strategy will include specific goals and performance measures. The burden of data
management will be minimized through streamlined reporting procedures for the low
severity adverse events and use of quarterly aggregated reviews for adverse drug events
and falls. A management analysis to determine core staffing requirements will be
requested. The draft DoD instruction on the Patient Safety Program was revised to
include a requirement for patient safety personnel to attend training before participating
in the program. The Department of Veterans Affairs patient safety database software is
expected to be used beginning in the spring 2001 at the start of the next phase of the
program. See the Finding section for a discussion of management comments and the
Management Comments section for the complete text of the comments.

Audit Response. The Acting Assistant Secretary of Defense (Health Affairs)
comments were fully responsive and no additional comments are required. Actions
planned to minimize the burden of data management satisfy the intent of the
recommendation to implement a phased approach for reporting adverse events. Based
on management comments, we deleted the portion of the recommendation to use
Department of Veterans Affairs software during the DoD program pilot phase.
Throughout the audit we worked closely with the staff in the Office of the Secretary of
Defense (Health Affairs), and we commend the staff on their aggressive approach to
implementing corrective actions.




                                            ii
Table of Contents

Executive Summary                                                     i

Introduction
     Background                                                       1
     Objectives                                                       3

Finding
     Implementing Strategy for Collection and Reporting of Patient
       Safety Data                                                    4

Appendixes
     A. Audit Process
         Scope and Methodology                                       13
         Prior Coverage                                              14
     B. Report Distribution                                          16

Management Comments
     Assistant Secretary of Defense (Health Affairs)                 17
Background
           Quality Interagency Coordination Task Force. On March 12, 1998, the
           Advisory Commission on Consumer Protection and Quality in the Health Care
           Industry issued a report to the President entitled, “Quality First: Better Health
           Care for all Americans.” The report recommends establishing two
           complementary entities—one public and one private—to provide ongoing
           national leadership in health care quality improvement.

           In response to the recommendation regarding the public entity, the President
           issued a memorandum on March 13, 1998, which directed the Secretary of
           Health and Human Services to establish the Quality Interagency Coordination
           Task Force (QuIC). The President directed the QuIC to ensure better
           coordination among executive agencies with jurisdiction over health programs.

           The QuIC is cochaired by the Secretary of Health and Human Services and the
           Secretary of Labor. The Administrator of the Agency for Healthcare Research
           and Quality in the Department of Health and Human Services serves as
           chairman for day-to-day operations. In addition to the Department of Health
           and Human Services and the Department of Labor, Federal members of the
           QuIC are the:

                    •   Department of Commerce,
                    •   Department of Defense,
                    •   Department of Veterans Affairs,
                    •   Office of Management and Budget,
                    •   Office of Personnel Management,
                    •   U.S. Coast Guard,
                    •   Federal Bureau of Prisons,
                    •   Federal Trade Commission, and
                    •   National Highway Traffic Safety Administration.

           Institute of Medicine Report. On November 29, 1999, the Institute of
           Medicine (IOM)* released a report, “To Err is Human, Building a Safer Health
           System.” The report estimated that as many as 44,000 to 98,000 patients in the
           United States die each year from medical errors. The IOM calculated the
           estimate by extrapolating the results from two separate studies on patient
           hospitalizations. One was a 1992 study that reviewed hospitalizations in
           Colorado and Utah, and the other study reviewed patient admissions from a
           1984 New York hospital admissions database. The July 5, 2000, issue of the
           Journal of the American Medical Association contained two reviews of the IOM


*
    The IOM is an organization that is part of the National Academies. The Federal Government created
    the National Academies to be advisors on scientific and technological matters. The National Academies
    are private, non-governmental organizations and do not receive direct Federal appropriations for their
    work. Studies undertaken for the Government by the National Academies usually are funded by
    appropriations made available to Federal agencies.



                                                      1
report. One review stated the report exaggerated the number of medical errors
and the other review stated the report underestimated the number of medical
errors.

The IOM report provides a strategy for addressing errors that occur in the
health system and recommends establishing a national goal to reduce the number
of medical errors by 50 percent during the next 5 years. The report outlines a
four-tiered approach to reduce medical errors with actions to:

       •   establish a national focus to create leadership, research, tools, and
           protocols to enhance the knowledge base about safety;

       •   identify and learn from medical errors through both mandatory and
           voluntary reporting systems;

       •   raise standards and expectations for improvements in safety through
           the action of oversight organizations, group purchasers, and
           professional groups; and

       •   implement safe practices at the delivery level.

Executive Memorandum. On December 7, 1999, the President directed the
QuIC to evaluate the recommendations in the IOM report and provide specific
actions that will improve health care outcomes and to prevent medical errors.

QuIC Report to the President. The QuIC issued “Doing What Counts for
Patient Safety: Federal Actions to Reduce Medical Errors and Their Impact” in
February 2000. The QuIC agreed with the IOM recommendations and provided
the actions that QuIC member agencies will take to address the IOM
recommendations.

The QuIC report explained that DoD would implement a confidential patient
safety reporting system, modeled after a Department of Veterans Affairs (VA)
system, in its hospitals and clinics. The proposed reporting system will collect
information on adverse events, medication errors, close calls, and other patient
safety issues. The intent of the reporting system is to provide health care
professionals and facilities with the information necessary to protect patient
safety.

Other DoD-Wide Patient Safety Initiatives. There are many DoD-wide
initiatives that have potential for improving patient safety. For example, DoD is
developing a new computerized patient medical record that will include an
automated entry order system for pharmaceuticals. The computerized record is
being developed to assure that all relevant clinical information on a patient is
complete, accurate, and available when and where it is needed. DoD also plans
to deploy a pharmacy bar-code system that will scan a patient’s military
identification card and the medication bar code at the time the medication is
delivered. The bar-code system will help ensure that a patient is not given
medication intended for someone else and reduce the risk of medication errors.
We did not review these initiatives, rather we reviewed the collection and
reporting of patient safety data.



                                     2
Objectives
     Our objective was to evaluate the collection and reporting of quality assurance
     data within the Military Health System (MHS) with a focus on the management
     of events potentially affecting patient safety. We did not evaluate the
     management control program because the patient safety reporting program is
     still in the development phase. See Appendix A for a discussion of the audit
     scope and methodology and for a summary of prior coverage.




                                         3
            Implementing Strategy for Collection and
            Reporting of Patient Safety Data
            Significant effort to collect and report patient safety data is ongoing at
            the Military Treatment Facility (MTF) level within the MHS. The DoD
            proposed a patient safety reporting program that has the potential to
            improve data consistency and provide a means for sharing the data and
            lessons learned throughout DoD. However, to effectively and efficiently
            implement the proposed patient safety reporting program, the Office of
            Assistant Secretary of Defense (Health Affairs) (OASD[HA]) must
            develop an implementation strategy. The implementation strategy
            should, at a minimum, identify program goals and performance
            measures, phase in adverse event reporting, include core staffing,
            require mandatory training, and include provisions for utilizing VA
            patient safety database software. Without an implementation strategy
            that addresses the preceding issues, the potential for improving health
            care through the reduction of medical errors may not be maximized.


Patient Safety
     Patient Safety Data. Patient safety data refers to any information collected on
     an adverse event. Adverse events are occurrences or conditions associated with
     care or services that cause or could cause unexpected harm to the patient while
     providing care or services. Adverse events may be acts of either commission or
     omission.

     Sentinel events constitute a subcategory of adverse events. The Joint
     Commission on Accreditation of Healthcare Organizations (JCAHO) defines a
     sentinel event as an unexpected occurrence that involves death, serious physical
     or psychological injury, or risk thereof. The JCAHO identifies the following as
     sentinel events and may be subject to JCAHO review as a part of the MTF
     accreditation process:

            •   an unanticipated death or major permanent loss of function, not
                related to the natural course of the patient’s illness or underlying
                condition; or

            •   suicide of a patient in a setting where the patient receives
                around-the-clock care, infant abduction or discharge to the wrong
                family, rape, hemolytic transfusion reaction involving administration
                of blood or blood products having major blood group
                incompatibilities, or surgery on the wrong patient or wrong body
                part.

     Although JCAHO requires that the above events be considered sentinel events,
     reporting of sentinel events to JCAHO is voluntary. During FY 1999, DoD
     reported 21 sentinel events to JCAHO.




                                          4
     Root Cause Analysis. To determine the circumstances surrounding a potential
     sentinel event, medical facilities perform a root cause analysis. JCAHO has
     issued specific criteria for performing root cause analyses. A root cause
     analysis is a process for identifying the basic or contributing causal factors
     associated with adverse events. The analysis is conducted by an
     interdisciplinary team of administration and health care professionals with the
     required experience and focuses primarily on systems and processes rather than
     individual performance. The product of the analysis is an action plan that
     identifies and implements strategies to reduce risk of similar events occurring in
     the future. The action plan should address responsibility for implementation,
     oversight, time lines, and strategies for measuring the effectiveness of the
     actions. Root cause analyses are performed for many serious adverse events
     that, after research, do not meet the sentinel event criteria.


Significant MTF Effort for Collecting and Reporting Patient
   Safety Data
     Significant effort to collect and report patient safety data is ongoing at the MTF
     level within the MHS. The six MTFs visited had established programs based on
     Military Department guidance, and had staffs fully dedicated to the patient
     safety effort. Additionally, OASD(HA) required the MTFs to report sentinel
     events to JCAHO, and is in the process of implementing a DoD-wide patient
     safety reporting program.

     Military Department Guidance. Each of the Military Departments has issued
     guidance requiring the MTFs to establish quality improvement programs.
     Guidance includes Army Regulation 40-68, “Quality Assurance
     Administration,” December 20, 1989; Naval Bureau of Medicine and Surgery
     Instruction 6010.13, “Quality Assurance Program,” August 19, 1991; and Air
     Force Instruction 44-119, “Clinical Performance Improvement,” August 1,
     2000. The primary purpose of these programs is to improve patient safety by
     delivering quality patient care and reducing the risk of adverse events.

     Patient Safety Effort at MTFs. The six MTFs we visited have quality
     improvement programs for patient safety based on the Military Department
     guidance and staffs fully dedicated to quality improvement programs. Each
     quality improvement program provides for ongoing identification and
     investigation of incidents involving accidents or injuries that adversely affect
     patients, visitors, or staff. Additionally, the programs investigate deviations
     from standards of health care. However, collection of patient safety data
     remains at the MTF. In addition to adverse event reports, the MTFs obtained
     patient safety information from medical diagnosis reviews, patient chart
     reviews, and peer reviews.

     Each of the six MTFs performed trend analyses on the patient safety information
     gathered. The results of the analyses were reported to committees within the
     MTF established to monitor the patient safety efforts and ensure action to reduce
     adverse events and improve patient safety was taken. MTF adverse event report
     documentation and committee minutes reflect that the patient safety analyses


                                          5
have resulted in changes and improvements in systems and processes that
improved patient safety. Some examples of procedural changes and process
improvements at the MTF include:

       •   restricting distribution of potentially lethal medications to only
           premixed doses,

       •   changing packages of medications that appeared similar,

       •   decreasing the time it takes to transport seriously ill patients to other
           medical facilities,

       •   improving timeliness of scheduling patients for ancillary services,
           and

       •   calling patients the day after an outpatient procedure.

Reporting Sentinel Events to JCAHO. In a memorandum dated
September 24, 1999, the ASD(HA) requires MTFs to report sentinel events to
JCAHO. The JCAHO requires accredited hospitals to review sentinel events;
however, reporting sentinel events to JCAHO is voluntary. DoDs mandatory
reporting requirement exceeds JCAHO criteria.

When sentinel events are reported to JCAHO, the health care organization is
expected to prepare and submit to JCAHO a thorough and credible root cause
analysis and action plan within either 45 calendar days of the event or learning
of the event. Once the analysis is received, JCAHO will determine if the
analysis and action plan are acceptable. During 1999, the 6 MTFs visited had a
total of 30 events for which a root cause analysis was performed. Of the 30
events that lead to root cause analyses, the MTFs determined that 4 were
sentinel events and reported them to JCAHO. JCAHO found that the submitted
root cause analyses and action plans were acceptable.

Centralized Patient Safety Reporting Program. OASD(HA) proposed a
centralized DoD-wide program for collecting and reporting patient safety data in
the MHS. The DoD instruction, in draft as of January 2001, will require every
MTF to establish a dedicated program for avoiding medical mistakes and
improving patient safety by focusing on improved medical systems and
processes. The cornerstone of the program is the centralized collection and
analysis of patient safety data, with emphasis on a nonpunitive philosophy
toward those reporting adverse events. Previous studies of adverse event
reporting found most adverse events were not reported and the variation of
adverse events between medical facilities or within medical facilities over time,
may be the result of increased or decreased reporting rather than a change in the
number of adverse events. We believe implementation of a centralized patient
safety system that advocates one DoD policy with a nonpunitive philosophy has
the potential to improve data consistency and provide a means for sharing the
data and lessons learned throughout DoD.




                                     6
Program Implementation Strategy
    Although the proposed patient safety reporting program is a valuable tool, its
    effectiveness could be improved by developing an overall strategy for
    implementing the program. Such a strategy should include program goals and
    performance measures for determining the status and success of the patient
    safety reporting program. The strategy should also include a phased approach
    for reporting adverse events, core staffing requirements, mandatory training
    requirements, and provisions for using the VA patient safety database software.
    Without an implementation strategy that addresses the preceding issues, the
    potential for improving health care through the reduction of medical errors may
    not be maximized.

    Goals and Performance Measures. Program goals and performance measures
    have not been developed for the patient safety reporting program. The
    Government Performance and Results Act of 1993 (the Act) states that Federal
    managers are disadvantaged in their efforts to improve program efficiency and
    effectiveness because program goals are not sufficiently identified and adequate
    program performance data are not available. Although directed toward the
    overall performance of each agency, the Act does provide a method to improve
    the management, and ultimately success, of smaller programs. The method
    consists of:

           •   establishing performance goals that define the level of performance to
               be achieved;

           •   expressing each goal in an objective, quantifiable, and measurable
               form;

           •   describing the operational processes and resources required to meet
               the performance goals;

           •   providing a basis upon which actual program results can be compared
               against established performance goals; and

           •   describing the means to verify and validate measured values.

    Significant assets and effort will be required to implement the patient safety
    reporting program throughout DoD. Personnel and automation resources are
    needed to establish the reporting system. Personnel at the MTF level will need
    training on the new program. In addition, health care providers will
    increasingly be involved with root cause analyses. Establishing performance
    goals, determining how the goals will be measured, and identifying when actual
    performance will be compared with the goals will provide a systematic method
    to optimize benefits.

    Phased Approach for Reporting Adverse Event Data. The draft DoD
    instruction on the patient safety reporting program requires reporting all adverse
    events and could result in too much information to manage effectively.




                                        7
OASD(HA) and Armed Forces Institute of Pathology (AFIP) senior managers
were not aware of the number of adverse events reports, excluding sentinel
events, prepared at the MTFs each year.

Adverse event data from the three medical centers and three community
hospitals we visited during the audit are presented in the table below. We
believe the variation in the number of adverse events between similar sized
MTFs is due to inconsistent reporting and should not be used as the basis for
comparing health care quality between MTFs. We did not perform a statistical
sample and therefore cannot project the total number of adverse event reports
prepared annually by all inpatient MTFs. However, because the 6 MTFs visited
had a combined total of 5,792 adverse events, we believe the total for all 89
MTFs in DoD will be a substantial number.

                        1999 Adverse Events at Audit Sites
                                   Root Cause Analyses                Total
       Type of MTF                 (Sentinel and Other)           Adverse Events

 Medical Center 1                            7                         3,071
 Medical Center 2                            0                           282
 Medical Center 3                           16                         1,241
 Community Hospital 1                        0                           141
 Community Hospital 2                        1                           144
 Community Hospital 3                        6                           913
   Total                                    30                         5,792


OASD(HA) senior management was not aware of the volume of MTF adverse
events and expressed to us their concerns that the reporting of all adverse events
in the initial stages of the proposed patient safety reporting program might result
in an overload of data without any focus.

The draft DoD instruction on the patient safety reporting program assigns
responsibility for developing and maintaining the database to the AFIP. AFIP
senior management was also unaware of the volume of adverse events. AFIP
management was especially concerned about the additional staffing and funding
required to review, analyze, and trend a large database.

OASD(HA) and AFIP senior managers realize the proposed program will
require a significant reporting effort at the MTF level and stress the importance
of giving MTFs timely, accurate, and meaningful feedback to ensure program
support at the MTFs. To keep the database and workload manageable as well as
provide prompt feedback, the program could initially require reporting of only
those events that result in a root cause analysis. Such a requirement would help




                                     8
ensure that the initial focus of the program is on the high-risk areas. Reporting
of all other adverse events could be phased in to the program. Senior
management agreed.

Dedicated Full-Time Core Staff. OASD(HA) has not adequately staffed the
patient safety reporting program to ensure implementation. In response to the
December 7, 1999, Presidential memorandum that directs Federal agencies to
improve patient safety, OASD(HA) established the DoD Patient Safety Working
Group (Working Group). The Working Group meets about every third week
and comprises representatives from the Military Department Surgeons General,
the Uniformed Services University of Health Sciences, the AFIP, the
OASD(HA), and the TRICARE Management Office. The Working Group has
the broad tasking to review patient safety issues, identify patient safety
initiatives, prepare a patient safety instruction that creates a confidential
reporting program, and manage implementation of the program to include
training. Despite the magnitude and significance of the Working Group’s
tasking, none of the members was assigned to the group full time. Each
member was assigned to the Working Group as a collateral duty, requiring a
substantial amount of effort above and beyond the time needed for the members’
primary duties. In addition, military personnel who fill many of the key
program management positions are subject to rotate to other positions.

Because DoD is adopting the VA patient safety reporting program, we contacted
the VA to determine the size of the core staffing and methodology the VA is
using to implement the program. To implement its patient safety reporting
program, the VA created the National Center for Patient Safety with 24
full-time personnel positions. The large full-time staff is needed because the
National Center for Patient Safety is responsible for issuing patient safety
reporting program guidance, conducting associated training courses, and dealing
with the program’s day-to-day implementation problems. The National Center
for Patient Safety will also perform on-site reviews to determine the status of
program implementation, along with maintaining and reviewing the patient
safety database to identify trends.

We realize that DoD has 89 inpatient facilities and the VA has 173, and the
staffing required to implement each patient safety reporting program will vary.
Because DoD adopted the VA safety reporting program, a large full-time staff
was not required during the early stages of the program’s development.
However, now that DoD is moving into the program training and
implementation phase, some level of full-time core staff is needed for the
program to be successful.

Training. To improve the consistency of MTF adverse event reporting, the
Working Group is developing a training course for the proposed patient safety
reporting program. However, there is no requirement for personnel from the
MTFs to participate in the training prior to implementing the program.

Without a centralized patient safety reporting program, MTFs developed
inconsistent methods of collecting and tracking adverse event reports. Four of
the MTFs visited had patient safety departments that centrally reviewed adverse
event reports that could quickly provide detailed information on the types and
quantities of adverse events. The two other MTFs relied on individual


                                    9
departments to review adverse events and to obtain totals. Other than sentinel
events, none of the MTFs reported adverse events outside the MTF. Differing
collection methods could contribute to the variation in reported adverse events
as shown in the preceding table. An extensive review conducted by medical
professionals would be required to determine the reason for the variation and is
beyond the scope of this audit.

To ensure consistency in the methods for identifying and researching adverse
events, the VA developed a 3-day patient safety training seminar and requires
hospitals, prior to participating in the patient safety reporting program, to send
patient safety personnel to the seminar. The training seminar focuses on
establishing a consistent method for identifying, classifying, and reporting
adverse events. The seminar outlines a 22-step methodology, along with a
standardized form for performing a root cause analysis, and requires attendees
to complete numerous case studies on reviewing and reporting adverse events.
During FY 2000, the VA offered 8 training seminars at various locations and
more than 880 personnel attended the training seminars. Personnel selected for
attending were the directors of VA hospital patient safety reporting programs
and other key personnel who would most likely be responsible for acting as a
root cause analysis team advisor.

OASD(HA) plans for the National Capital Region to be the test pilot site for the
proposed patient safety reporting program and has developed a training seminar
that parallels the VA seminar. Although the first training seminar was planned
for September 2000, readiness training requirements and JCAHO accreditation
reviews caused the seminar to slip to October 2000.

We applaud the OASD(HA) decision to pattern the DoD patient safety reporting
program training after the VA training. However, we believe OASD(HA)
should include a requirement in the implementation strategy for all MTFs to
send patient safety personnel to program training prior to participation in the
proposed patient safety reporting program. Requiring MTFs to send personnel
to patient safety training would help ensure consistency in the centralized
database and facilitate program implementation.

Using Department of Veterans Affairs Software. Patient safety initiatives
within DoD and the VA could result in concurrent development of multiple
patient safety reporting programs, centers, and databases. The VA has already
developed software for creating and maintaining a patient safety database. To
keep program development cost at a minimum and facilitate the sharing and
consolidation of patient safety data, we believe DoD should use the VA patient
safety database software.

Congress encourages DoD and the VA to share, when possible, health care
facilities and staff. Senior managers with the VA patient safety reporting
program would prefer not to maintain a joint database because DoD is only in
the early stages of implementing the program, but the VA did offer to share the
database software with DoD. However, during the pilot program, OASD(HA)
plans to use an internally developed spreadsheet to collect data. We believe the
VA software would enable DoD to avoid software development costs and
facilitate future sharing between the VA and DoD of the patient safety data and
lessons learned. In addition, it would be a major step toward ensuring that the


                                    10
    DoD patient safety information can be consolidated into a Federal patient safety
    reporting program which has been considered by the Congress and the
    President.


Conclusion
    The Working Group has done a commendable job initiating a patient safety
    reporting program throughout DoD. The success so far is attributable in part to
    highly capable and motivated senior management and the decision to adopt the
    patient safety reporting program developed by the VA. The most challenging
    part of the program—training and implementation—is about to start. To date,
    much of the coordination and planning for the program has been based on verbal
    plans and commitments. However, no document exists that provides an
    overview of the program or links key areas such as goals and performance
    measures, workload management, staffing, training, and program software. In
    addition, military personnel who fill many of the key program management
    positions are subject to rotate to other positions. Therefore, development of a
    program strategy to ensure continuation of program direction and momentum is
    essential toward maximizing the potential for reducing medical errors as well as
    improving health care.


Recommendations, Management Comments, and Audit
  Response
    Revised Recommendation. As a result of management comments, we revised
    Recommendation 5. to omit the requirement to use the Department of Veterans
    Affairs patient safety database software during the program pilot phase.

    We recommend that the Assistant Secretary of Defense (Health Affairs)
    develop an implementation strategy for the proposed patient safety
    reporting program that at a minimum:

           1. Identifies program goals and performance measures.

    Management Comments. The Acting Assistant Secretary of Defense (Health
    Affairs) concurred and, in conjunction with the DoD Patient Safety Working
    Group, will develop a strategy that includes specific goals and performance
    measures.

           2. Outlines a phased approach for reporting adverse events.

    Management Comments. The Acting Assistant Secretary of Defense (Health
    Affairs) concurred but provided alternative procedures to minimize the
    administrative burden on the facilities and the Armed Forces Institute of
    Pathology. Pilot test results of a new reporting format for close calls and low
    severity adverse events indicate that data management can be streamlined.



                                       11
Also, including quarterly aggregated reviews for adverse drug events and falls
in the DoD Patient Safety Program will provide necessary data while reducing
reporting requirements.

Audit Response. The comments are fully responsive. Planned action to
include the revised reporting format and quarterly aggregated reviews meets the
intent of the recommendation to reduce the burden of data management during
program implementation. In addition, the actions should reduce the burden
throughout the life of the program.

      3. Includes the full-time core staffing required to establish and
maintain the program.

Management Comments. The Acting Assistant Secretary of Defense (Health
Affairs) concurred and is requesting a management analysis by the Army as the
executive agent for the Armed Forces Institute of Pathology to determine the
staffing needs for the Patient Safety Center.

       4. Requires Military Treatment Facilities to send patient safety
personnel to program training prior to participating in the patient safety
reporting program.

Management Comments. The Acting Assistant Secretary of Defense (Health
Affairs) concurred and revised the draft DoD instruction on the Patient Safety
Program. The instruction is expected to be issued in January 2001.

       5. Requires the use of the Department of Veterans Affairs software
for creating and maintaining a patient safety database.

Management Comments. The Acting Assistant Secretary of Defense (Health
Affairs) concurred, stating that the Department of Veterans Affairs software is
in the final stages of development. Minor software modifications are necessary
because of differences in patient populations and health care systems, and the
software is expected to be used in the next phase of the program beginning in
the spring 2001.

Audit Response. The comments are fully responsive. The recommendation in
the draft report included the requirement to use the software during the program
pilot phase. As stated in the management comments, the software will not be
available for use until the next phase of the program begins in the spring 2001.
Therefore, the recommendation was revised to omit the requirement to use the
software during the pilot phase.




                                   12
Appendix A. Audit Process

Scope and Methodology
    Work Performed. The audit reviewed collecting and reporting of quality
    assurance data within the MHS. We interviewed OASD(HA) personnel
    responsible for developing the proposed DoD patient safety reporting program.
    We reviewed the draft DoD patient safety instruction that was distributed among
    DoD Components in April 2000 for coordination. We reviewed the IOM report
    that estimated the number of patients that may die each year in the United States
    as a result of medical errors. We did not evaluate the validity of the estimate.
    We also reviewed the QuIC report that considered the recommendations in the
    IOM report and reported to the President that DoD would implement a patient
    safety reporting program.

    The proposed DoD patient safety reporting program is modeled after a patient
    safety reporting program developed by the VA. We interviewed personnel
    responsible for managing the patient safety effort at the VA National Center for
    Patient Safety. We also reviewed the methodology the VA is using to
    implement and manage the patient safety reporting program.

    The draft DoD patient safety instruction assigns the AFIP responsibility for
    managing and maintaining a database for patient safety information. We
    interviewed personnel with the Department of Legal Medicine at the AFIP who
    will be responsible for managing and maintaining the database. We reviewed
    AFIP plans to manage, staff, and fund the database effort.

    We interviewed management representatives from the Army Medical Command,
    Naval Bureau of Medicine and Surgery, and the Office of the Air Force Surgeon
    General who are responsible for the patient safety effort within the Military
    Departments. We reviewed the guidance issued between December 1989 and
    August 2000 by each Military Department that requires MTFs to establish
    programs to monitor and improve patient safety. We visited six MTFs (one
    medical center and one community hospital from each Military Department) and
    reviewed procedures for collecting and reporting patient safety information. We
    also reviewed MTF patient safety documentation dated from November 1998
    through May 2000. Specifically, we reviewed adverse event reports, sentinel
    event reports, peer review documentation, and minutes from committees at the
    MTFs that were established to monitor patient safety efforts. We did not
    question judgments on whether adverse events were reportable sentinel events.




                                       13
    DoD-Wide Corporate Level Coverage. In response to the Government
    Performance and Results Act, the Secretary of Defense annually establishes
    DoD-wide corporate level goals, subordinate performance goals, and
    performance measures. This report pertains to achievement of the following
    goal and subordinate performance goals:

           FY 2001 DoD Corporate Level Goal 2: Prepare now for an uncertain
           future by pursuing a focused modernization effort that maintains
           U.S. qualitative superiority in key warfighting capabilities. Transform
           the force by exploiting the Revolution in Military Affairs, and reengineer
           the Department to achieve a 21st century infrastructure. (01-DoD-2)
           FY 2001

           Subordinate Performance Goal 2.3: Streamline the DoD infrastructure
           by redesigning the Department’s support structure and pursuing business
           practice reforms. (01-DoD-2.3).

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objectives and
    goals.

           •   Health Care. Objective: Become a benchmark health system.
               Goal: Measure health outcomes and customer satisfaction to identify
               opportunities for improvement.

    High-Risk Area. The General Accounting Office has identified several
    high-risk areas in DoD. This report provides coverage of the Defense
    Infrastructure and Information Management and Technology high-risk areas.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Audit Type, Dates, and Standards. This program audit was performed from
    April through August 2000 in accordance with auditing standards issued by the
    Comptroller General of the United States, as implemented by the Inspector
    General, DoD.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within and outside of DoD. Further details are available on
    request.


Prior Coverage
    During the last 5 years, the General Accounting Office and the Inspector
    General, DoD, issued two reports discussing patient safety and medical errors.
    Unrestricted General Accounting Office reports can be accessed over the
    Internet at http://www.gao.gov. Unrestricted Inspector General, DoD, reports
    can be accessed at http://www.dodig.osd.mil/audit/reports.



                                       14
General Accounting Office
     General Accounting Office Report No. HEHS-00-21, “Adverse Drug Events:
     The Magnitude of Health Risk is Uncertain Because of Limited Incidence
     Data,” January 18, 2000

Inspector General, DoD
     Inspector General, DoD, Report No. 98-168, “DoD Implementation of the
     National Practitioner Data Bank Guidelines,” June 26, 1998




                                     15
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Health Affairs)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Non-Defense Federal Organizations
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                          16
Assistant Secretary of Defense (Health
Affairs) Comments




                    17
18
Audit Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant
Inspector General for Auditing, DoD, prepared this report. Personnel of the
Office of the Inspector General, DoD, who contributed to the report are listed
below.

Shelton R Young
Raymond D. Kidd
Michael A. Joseph
Sanford W. Tomlin
G. Paul Johnson
James A. O’Connell
James K. Knight
Eva M. Zahn
